OIG Investigative Reports, Washington, DC-December 14, 2010 - Illinois Woman Pleads Guilty to Illegally Accessing Confidential Student Loan Files
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
WWW.USDOJ.GOV
Tuesday, December 14, 2010
Illinois Woman Pleads Guilty to Illegally Accessing Confidential Student Loan Files
WASHINGTON – An Illinois woman pleaded guilty today to illegally accessing numerous confidential student loan files, Assistant Attorney General Lanny A. Breuer of the Criminal Division announced. Charlotte M. Robinson, 46, of Dolton, Ill., pleaded guilty before U.S. Magistrate Judge Susan E. Cox in the Northern District of Illinois to a one-count criminal information charging her with unauthorized computer access. Robinson is scheduled to be sentenced on Feb. 22, 2011.
According to court documents, Robinson worked as a full-time employee in the Federal Student Aid (FSA) Division of the Department of Education, where her responsibilities included reviewing and processing student loan complaints within the FSA Office of the Ombudsman. In pleading guilty, Robinson admitted that she had access to the National Student Loan Database System (NSLDS), which contained confidential federal student loan records maintained by the Department of Education. These student loan records included, among other information, the borrower’s full name, date of birth, Social Security number, type of federal loan, loan balances, place of enrollment and loan servicer. Confidential records maintained in NSLDS are protected by the Privacy Act of 1974, and access by Department of Education employees is strictly limited to official government duties.
Robinson admitted that between April 2006 and May 2009, she logged into NSLDS, which became fully automated in approximately 2006, and repeatedly searched for and viewed the confidential student loan records of several hundred people, including musicians, actors, family members, friends and other individuals. Robinson admitted that she had no official government reason to access and to view these student loan records applications, and that her sole purpose in accessing and viewing these records was idle curiosity.
This case is being prosecuted by Trial Attorney Eric G. Olshan of the Criminal Division’s Public Integrity Section. This case was investigated by the Department of Education Office of Inspector General.
Printable view
Last Modified: 12/16/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov